No. 20-1088

 

 

IN THE

Supreme Court of the Anited States

DAVID CARSON, et al.,
Petitioners,
Vv.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS
COMMISSIONER OF THE MAINE DEPARTMENT OF EDUCATION,

Respondent.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this
11" day of March, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF OF THE JEWISH COALITION OF RELIGIOUS
LIBERTY AS AMICUS CURIAE SUPPORTING PETITIONERS by placing said
copies in FEDERAL EXPRESS, PRIORITY OVERNIGHT, postage prepaid, addressed
as listed below.

Michael E. Bindas Sarah Forster

Institute for Justice Christopher Taub

600 University Street Office of the Attorney General
Suite 1730 Six State House Station
Seattle, WA 98101 Augusta, ME 04333-0006
mbindas@ij.org sarah.forster@maine.gov

christopher.c.taub@maine.gov

 

 

ON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 11" day of March, 2021.

 

 

KAREN PIERANGELI
Notary PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

 

 

 
